2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Le g al Brie fs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.

 

DAVID SETH WORMAN, et al.,
Petitioners,

Vv.

MAURA T. HEALEY, in her official
capacity as ATTORNEY GENERAL of the
Commonwealth of Massachusetts, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of September, 2019, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JAMES MICHAEL CAMPBELL JOHN PARKER SWEENEY
RICHARD PAUL CAMPBELL Counsel of Record
CAMPBELL CONROY & JAMES W. PORTER, III
O’NEIL, P.C. MARC A. NARDONE

1 Constitution Wharf BRADLEY ARANT BOULT
Suite 310 CUMMINGS LLP
Boston, MA 02129 1615 L Street NW

Suite 1350

Washington, DC 20036

(202) 393-7150

Subscribed and sworn to before me this 23rd day of September, 2019.

jsweeney@bradley.com

Counsel for Petitioners

1am duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE
General Notary

State of Nebraska
My Commission Expires Nov 24, 2020

 

Notary Public

Affiant 38121
SERVICE LIST
Counsel for Respondents:

Julia Eleanor Kobick

Gary Klein

William W. Porter

Jeffrey Thomas Collins

Elizabeth A. Kaplan

Massachusetts Attorney General's Office
1 Ashburton Place

Boston, MA 02108-0000

617-963-2559

julia. kobick@state.ma.us
